Case No.:

fo-16 ZS
Supreme Ccuri, U.S.
FILFD

O1 1
IN THE
SUPREME COURT OF THE UNITED STATES

JUAN FRANCISCO VEGA,
PETITIONER/APPELLANT,
V.

CHAD POPPELL, SECRETARY OF FLORIDA
DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT/APPELLEE

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT

JUAN FRANCISCO VEGA
RESIDENT NUMBER 991353
FLORIDA CIVIL COMMITMENT CENTER
13619 S.E. HWY 70
ARCADIA, FL 34266

OFFICF O^T1-'^ C'.F.F '!

‘

QUESTIONS PRESENTED
1.

WHETHER

REINSTATED

THE

BASED

CONSTITUTION,

JURY’S
ON

VERDICT

THE

MUST

UNITED

FLORIDA CONSTITUTION.

BE

STATES
FLORIDA

STATUTES, AND FLORIDA RULES OF COURT?
2.

WHETHER ABSENT A JURY’S FINDING OF A

MENTAL

ABNORMALITY

COUPLED

WITH

A

PERSONALITY DISORDER THE INVOLUNTARY CIVIL
COMMITMENT IS UNCONSTITUTIONAL?
3.

WHETHER THE ANTITERRORISM AND EFFECTIVE

DEATH PENALTY ACT IS UNCONSTITUTIONAL?

n.

LIST OF PARTTF.fi

[X] All parties appear in the caption of the case on the cover
page.
[ ] All parties do not appear in the caption of the case on the
cover page.
[ ] A list of all parties to the proceeding in the court whose
judgment

is

the

subject

of

this

petition

is

as

follows_____

RELATED CASES
1.

In relation to the issue that the state of Florida allocates

a constitutional and statutory right to an initial civil
commitment jury trial (prohibiting the overruling thereof)
there is no related state or federal case in existence since this
is the case of first impression in the United States relating to
the right to a jury trial in the initial stage of a civil
commitment.

2.

In relation to the issue that citizens must be diagnosed

with a mental abnormality and personality disorder and that

m.

both must be proven by clear and convincing evidence for civil
commitment purposes or, in the alternative, the commitment is
unconstitutional, see Foucha v. Louisiana, 504 U.S. 71, 77
S.Ct. 1780, 118 L.Ed. 2d 437 (1992).
3.

In relation to the Antiterrorism and Effective Death

Penalty Act being unconstitutional in that it bars relief of a
state court holding, absent a pre-existing U.S. Supreme Court
holding in opposition, thus denying federal relief and
certificates of appealabity, there is no related state or federal
case in existence since this is the case of first impression in the
United States.
TABLE OF CONTENTS

PAGE NO.:

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL

AND

STATUTORY

PROVISION

INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT,

6

CONCLUSION,

20
IV.

INDEX TO APPENDICES

APPENDIX-A:

09/03/2020 — Order denying COA (11th Cir.)

APPENDIX-B:

01/22/2019 — Order denying petition for writ

of habeas corpus (U.S. South. Dist. (Fla.))

TABLE OF AUTHORITIES

PAGE NO.:

CASES
Aruanno v. Hayman, 384 F. App’x 144 (3d Cir. 2010)

13

City of Miami Beach v. Lachman, 71 So. 2d 148 (Fla. 1953)... 13
Coleman v. State ex rel. Race, 118 Fla. 201, 159 So. 504
(1935)
Gering v.

13
State,

252

So.3d

334

(Fla.

3d DCA 2018)

(alternations added), review denied, SC18-1343 (Fla. 12-172018), cert, denied sub nom. Gering v. Florida, 139 S.Ct. 1580
(2019)

9, 10

Foucha v. Louisiana, 504 U.S. 71, 77 S.Ct. 1780, 118 L.Ed. 2d
437 (1992).........................................................................

15, 16, 17

Gray v. Moss, 115 Fla. 701, 156 So. 262 (1939).......

14

Gray v. Winthrop, 115 Fla. 721, 156 So. 270 (1934)

14

Kansas v. Hendricks, 521 U.S. 346, 117 S.Ct. 2072, 138 L.Ed.
v.

2d 501 (1997)..................................................................

18

Martin v. Bartow, 628 F.3d 871 (7th Cir. 2010).......

17, 18

Montgomery v. State, 55 Fla. 97, 45 So. 879 (1908)

14

Poole v. Goodno, 335 F.3d 705 (8th Cir. 2003)..........

13

State v. Butler, 70 Fla. 102, 69 So. 771 (1915).........

14

United States v. Carta, 592 F.3d 34 (1st Cir. 2010).

13

RULES
Fla. R. Civ. P. 1.480 (2013)

5, 8, 9, 12

Fla. R. Civ. P. 4.240 (2013)

3, 8, 10, 11

Fla. R. Civ. P. 4.430 (2013).

3, 10, 11

STATUTES
Title 28 USC 2254

7, 19, 20

Fla. Stat. 394.912 (2013)

17

Fla. Stat. 394.913 (2013)

4

Fla. Stat. 394.914 (2013)

5, 14

Fla. Stat. 394.916 (2013)

3, 10, 11

CONSTITUTIONS
U.S. Const. 1st Amend

3, 20

U.S. Const. 14th Amend

3, 4, 10, 13

Fla. Const. Art. 1 §22

3
vi.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.

OPINIONS BELOW

[X] For cases from federal courts
The opinion of the U.S. court of appeals appears at Appendix-A
to the petition and is [ ] reported at

.; or

[ ] has been designated for publication but is not yet reported;
or
[ ] is unpublished.

[ ] For cases from state courts:
The opinion of the highest state court appears at Appendix__to
the petition and is [ ] reported at

;or

[ ] has been designated for publication but is not yet reported;
or
[ ] is unpublished.

l

JURISDICTION

[X] For cases from federal courts:
The date on which the U.S. court of appeals decided my case
was 09/03/2020. (Filing time was extended by the Clerk.)
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the U.S. court
of appeals on the following date:.

and a copy of

the order denying rehearing appears at Appendix.
[ ] An extension of time to file the petition was granted to
include

(date)

on

.(date)

in

Application No.___A
The jurisdiction of this court is invoked under 28 USC 1254 (1).

[ ] For cases from state courts:
The date on which the highest state court decided my case
was.
A copy of that decision appears at Appendix.
[ ] A timely petition for rehearing was thereafter denied on the
following date:

., and a copy of the order denying

rehearing appears at Appendix.

2

[ ] An extension of time to file the petition for a writ of
(date)

certiorari was granted to and including.
on

.(date) in Application No..

A

The jurisdiction of this court is invoked under 28 USC 1257 (a).

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

The importance of the instant case is what happens when the
jury finds that the state has not proven its case by clear and
convincing evidence. May the court step in at that point and
enter an order of commitment to accomplish the result that the
state was not able to accomplish. If the court may not civilly
commit in a jury trial then may it grant the state repetitive
-

efforts before another jury or jurors on the basis that the
verdict was against the weight of the evidence; thus allowing
additional proceedings until the state acquires its desired*
result. Or must the court enter a judgment in accordance with
the verdict that was given by the jury as required by Fla.
Const. Art 1 § 22, Fla. Stat. 394.916 (5), Fla. R. Civ. P. (SVP)
4.430 (a), Fla. R. Civ. P. (SVP) 4.240 (e) (l)-(2), and U.S. Const.
14th Amend. On the other hand, may a person be civilly

3

committed absent a jury finding that he or she has a mental
abnormality coupled with a personality disorder that compels
him or her to commit sexually violent offenses. And is the
Antiterrorism Effective Death Penalty Act unconstitutional in
that it bars federal relief of a state court holding absent a pre­
existing U.S. Supreme Court holding in opposition. U.S. Const.
14th Amend.

STATEMENT OF THE CASE

1.

On May 5, 1986, the Petitioner at age 23, entered a

guilty plea at the Eleventh Judicial Circuit Court in and for
Dade County, Florida, and was sentenced to a total of 30 years
imprisonment on case numbers F85-32539, F85-32540, F8532541, and F86-4671.
2.

On January 18, 2008, prior to the expiration of

Petitioner’s 30 years state prison sentence, the Florida*
Department of Corrections pursuant to section 394.913, Fla.
Stat., initiated the procedure required under the Involuntary
Civil Commitment of Sexually Violent Predator Act by sending
a letter to the Florida Department of Children & Families

4

notifying them that Petitioner met criteria for involuntary civil
commitment.
3.

On July 8, 2008, a Petition was filed by the State

Attorney of Dade County, Florida, pursuant to section 394.914,
Fla. Stat., to have Petitioner civilly committed based on the
Report & Recommendation of the Florida Department of
Children &Families alleging that he has a mental abnormality
called

Paraphilia

NOS

or

personality

disorder

called

Personality Disorder NOS with Antisocial features.
4.

On

February

4,

2013,

Petitioner

exercised

his

constitutional and statutory right to a jury trial and the State
Attorney failed to meet the burden of proving to the jury by
clear and convincing evidence that Petitioner is a sexually
violent predator with a mental abnormality or personality
disorder that compels him to commit sexually violent offenses.
5.

On February 22, 2013, at approximately 7:30 p.m. the

jury entered a split verdict of 3-3 which means that Petitioner
was required to be released from custody and couldn’t be
retried.
6.

In spite of the above facts, the trial court utilizing Rule

1.480, Fla. R. Civ. P., redirected the verdict giving the following

5

reasons: “Although Defense did present testimony by Dr.
DiTomasso who is extremely experienced in the area of
juvenile dependency, he did not qualify as an expert in sexual
predator cases, unlike the state’s experts who were qualified,
Dr. Amy Swan and Dr. Karen DanNamer, as well as the
reports that were part of the evidence by Dr. Jerry Musgrove.
As such, at this point and time,\I am going to grant the state’s
motion for directed verdict.”
7.

The testimonies of the experts, in the instant case, were

pure opinion only and Dr. DiTomasso testified as an expert
without the state objecting to his qualifications. It was only in
the post-verdict motion / order, that his qualifications and
testimony were characterized as not that of an expert in sexual
predator cases.

REASONS FOR GRANTING THE WRIT

1.

The jury verdict must be reinstated because the directed

verdict was entered in violation of the United
Constitution,

Florida Constitution,

Florida Rules of Court.

6

States

Florida Statutes, and

/l

2.

In addition, Petitioner cannot be civilly committed on

the basis of a mental abnormality or personality disorder. The
personality disorder must be coupled with the mental
abnormality.
3.

Finally, 28 USC 2254 (d) (1) is unconstitutional in that it

bars Petitioner from acquiring federal relief absent a state
court holding in opposition to a'U.S. Supreme Court holding which is an impossible task - if a U.S. Supreme Court
precedent in opposition doesn’t exist.
ISSUE NUMBER ONE
THE JURTS VERDICT MUST BE REINSTATED BASED ON
THE

UNITED

STATES

CONSTITUTION,

FLORIDA

CONSTITUTION, FLORIDA STATUTES, AND FLORIDA
RULES OF COURT.
1.

On

February

4,

2013,

Petitioner

exercised

his

constitutional and statutory rights to a jury trial and the state
failed to meet the burden of proving to the jury by clear and
convincing evidence that he is a sexually violent predator with
a mental abnormality or personality that compels him to
commit sexually violent offenses.

7

2.

On February 22, 2013, at approximately 7:30 p.m. the

jury entered a split verdict of 3-3 which means Petitioner was
required to be released from custody and couldn’t be retried,
pursuant to Rule 4.240 (e) ,(l)-(2), Fla. R. Civ. P.
3.

In spite of the above facts, the trial Court utilizing Rule

1.480, Fla. R. Civ. P., redirected the verdict giving the following
reasons: “Although Defense did present testimony by Dr.
DiTomasso who is extremely experienced in the area of
juvenile dependency, he did not qualify as an expert in sexual
*

predator cases, unlike the state’s experts who were qualified,
Dr. Amy Swan and Dr. Karen DanNamer, as well as the
reports that were part of the evidence by Dr. Jerry Musgrove.
As such, at this point and time, I am going to grant the state’s
motion for directed verdict.”
4.

The testimonies of all experts, in the instant case, were

pure opinion only and defense Dr. DiTomasso was allowed to
testify as an expert and to give his opinion about the lack of
sufficient science in predicting future behavior, without the
State Attorney objecting to his qualifications. It was only in the
post-verdict motion / order, that his qualifications and

8

testimony were characterized as not qualifying as an expert in
sexual predator cases.
5.

Since the trial court reached the ideology that Dr.

DiTomasso did not qualify as an expert, then it should have
ruled on that matter at the time when he introduced his
credentials / qualifications, prior to testifying - and should
have allowed Petitioner to proceed without an expert witness
or declared a mistrial. Instead,

the court allowed Dr.

DiTomasso to testify and allowed the jury to enter a final
judgment (which turned out in favor of the Petitioner) and then
redirected the verdict in favor of the state utilizing Rule 1.480.
6.

In Gering v. State, 252 So. 3d 334, 336, 340 (Fla. 3d DCA

2018) (alternations added), review denied, SC18-1343 (Fla.
Dec. 17, 2018), cert, denied sub nom. Gering v. Florida, 139
S.Ct. 1580 (2019). Florida’s Third District Court of Appeal
addressed an issue of “first impression” as to “[wjhether a trial
court is authorized by statute or rule to direct a verdict in favor
of the state in a Jimmy Ryce jury trial” holding: Given that the
Jimmy Ryce Rules expressly incorporate the [Florida] rules of
civil procedure (by which either party may seek a directed
verdict), and the fact that a motion for directed verdict under

9

[Florida] rules of civil procedure is not prohibited or otherwise
superseded by any provision of the Jimmy Ryce Act or the
Jimmy Ryce Rules, we hold that the trial court has the
authority, upon proper motion and showing, to enter a directed
verdict in favor of the state or respondent.
7.

The difference between Petitioner’s case and Gering’s

case — is that the court directed a verdict in Gering’s case
prior to the jury entering a final judgment but in Petitioner’s
case the court directed a verdict after the jury entered a final
judgment — which is the judgment of the case and conclusion
of the jury trial. Moreover, Petitioner’s case reached conclusion
whereas Gering’s case never reached conclusion by way of a
jury verdict.
8.

Since the instant case reached conclusion by way of a

jury verdict the protection of Fla. Const. Art. 1 § 22, Fla. Stat.
394.916 (5), Fla. R. Civ. P. (SVP) 4.430 (a), and Fla. R. Civ. P.
(SVP) 4.240 (e) (l)-(2) binds by way of U.S. Const. 14th Amend.
9.

Unlike Gering v. State, the instant case reached final

judgement and Gering was not controlling law at that specific
time nor was Gering’s judgement retroactive.

10

10.

Now due process requires that the law be reviewed to

determine whether Florida created an exclusive right to a jury
trial and whether the jury’s verdict must be reinstated:
a.)

Fla. Const. Art. 1 § 22, states that “[t]he right of trial by

jury shall be secure to all and remain inviolate:

b.)

Fla. Stat. 394.916 (5) states that “[t]he person or the

state attorney has the right to demand that the trial be before
a jury of six members;
c.)

Fla. R. Civ. P. (SVP) 4.430 (a) states that “[t]he right of

trial by jury as declared by the constitution or by statute shall
be preserved to the parties inviolative:” and
d.)

Fla. R. Civ. P. (SVP) 4.240 (e) (l)-(2) states that “The

court shall declare a mistrial if the jury cannot reach a
unanimous verdict. The court shall poll the jury before it is
discharged to determine if at least four jurors would have
found the respondent to be a sexually violent predator. A re­
trial shall be scheduled if at least four jurors would have found
the respondent to be a sexually violent predator. The re-trial on
the petition must be commenced within 90 days after the date
of the mistrial, unless the case is continued at the request of
the respondent for good cause. The court shall enter a final

11

judgment for the respondent if the re-trial is not commenced
within 90 days from the date of the mistrial unless the
respondent has waived the time limit by

receiving a

continuance. If three or more jurors do not find the respondent
is a sexually violent predator, the court shall enter a final
judgment in favor of the respondent.”
11.

The verdict in the instant case was 3-3 which means

that Petitioner was required to be released from custody and
cannot be re-tried. Also the court civilly committed this
Petitioner without the prerequisite unanimous jury verdict.
12.

When a conflict exist between a rule of procedure and a

constitutional and/or statutory provision - the constitution and
the statute must control.
13.

The instant case is unique in that unlike other states,

Florida’s Constitution gives Petitioner an exclusive right to a
jury trial and same does the Florida Statutes in sexually
violent predator cases.
14.

Therefore, procedural Rule 1.480 cannot supersede the

constitutional and statutory provisions; especially since the
State Attorney failed to object to the credibility of defense
expert witness, which results in a waiver.

12

15.

At this point the U.S. Const. 14th Amend., protects

Petitioner and the jury’s verdict must be reinstated.
16.

Moreover, unlike Aruanno v. Hayman, 384 F. App’x 144,

152 (3d Cir. 2010), United States v. Carta, 592 F. 3d 34, 43 (1st
Cir. 2010), and Poole v. Goodno, 335 F. 3d 705, 710 (8th Cir.
2003), that were cited by the United States District Court for
the Southern District of Florida (in the instant case) as the
basis for denial of relief; Florida created a constitutional and
statutory right to a jury trial in the initial stage of civil
commitment, which makes this case distinguishable from those
cited by the court.
17.

Finally, with regard to the State of Florida, the Florida

constitution is the supreme law adopted by the people,
although within its sphere, the constitution of the United
States is the supreme law of the land. All state governmental
powers are subject to the limitations imposed by the state
constitution

and

applicable

provisions

of

the

federal

constitution, and it is the duty of all officials, whether
legislative, judicial, executive, administrative, or ministerial, to
so

perform

every

official

act

as

not

to

violate

such

constitutional provisions. City of Miami Beach v. Lachman, 71

13

So. 2d 148 (Fla. 1953), Coleman v. State ex rel. Race, 118 Fla.
201, 159 So. 504 (1935), Gray v. Winthrop, 115 Fla. 721, 156
So. 270 (1934), Gray v. Moss, 115 Fla. 701, 156 So. 262 (1934),
Montgomery v. State, 55 Fla. 97, 45 So. 879 (1908), State v.
Butler, 70 Fla. 102, 69 So. 771 (1915).
ISSUE NUMBER TWO
ABSENT A JURY FINDING OF A MENTAL ABNORMALITY
COUPLED

WITH A PERSONALITY DISORDER

INVOLUNTARY

CIVIL

COMMITMENT

THE
IS

UNCONSTITUTIONAL.
1.

On July 8, 2019, a Petition was filed by the State

Attorney of Dade County, Florida, pursuant to section 394.914,
Fla. Stat., to have

Petitioner civilly committed based on a

Report & Recommendation of the Florida Department of
Children & Families alleging that he has a mental abnormality
called

Paraphilia

NOS

or

personality

disorder

called

Personality Disorder NOS with Antisocial features.
2.

If truth be told “NOS” means: not otherwise specified.

Meaning that the psychologists that evaluated the Petitioner
couldn’t specify what mental disorder he has.

14

3.

On

February

4,

2013

Petitioner

exercised

his

constitutional and statutory right to a jury trial and the state
failed to meet its burden of proving by clear and convincing
evidence that he is a sexual predator with a mental
abnormality or personality disorder that compels him to
commit sexually violent offenses.
4.

Clearly established federal law demonstrates that a

person must be diagnosed with a mental abnormality or
personality disorder and that both must be proven by clear and
convincing evidence - at trial — to pass the constitutional
muster for civil commitment.
5.

Alternatively, the State of Florida will be permitted to

hold a person indefinitely without a mental disorder that
compels them to commit sexually violent offenses and this
violates the 14th Amendment of the United States Constitution
and results in a fundamental error and miscarriage of justice.
6.

In Foucha v. Louisiana, 504 U.S. 71, 77, 112 S.Ct. 1780,

1784, 118 L.Ed. 2d 437 (1992) the court found that the state
vouches that because Foucha once committed a criminal
offense and now has antisocial personality disorder that
sometimes leads to aggressive behavior for which there is no

15

effective treatment, he may be confined indefinitely. The court
found that this rational would permit the State of Louisiana to
hold indefinitely any other insanity acquitee (not mentally ill)
who could be shown to have solely a personality disorder that
may lead to criminal behavior. The court also found that the
same would be true of any convicted (504 U.S. 83) criminal,
even though he has completed his prison term. Moreover, that
under that premise all prisoners could be civilly committed and
held indefinitely. The court also found that it would be only one
step away from substituting confinement for dangerousness for
our present system which, with only one narrow exceptions and
aside from permissible confinements for mental illness,
incarcerates only those who are proved beyond a reasonable
doubt to have violated a criminal statute. The court made a
determination in Foucha that the Louisiana statute failed to
provide fair and reasonable procedures because Foucha’s
continued confinement was on the basis of dangerousness
alone. Id. at 86. That to pass the constitutional muster, a civil
confinement statute must commit an offender based on a
finding of dangerousness and a present mental illness. Id. at
86.

16

7.

The Foucha ruling proves that section 394.912 (10) (b),

Fla. Stat., is unconstitutional because - like the Louisiana
statute - it allows the State of Florida to detain a person
indefinitely solely on the basis of a personality disorder
(dangerousness) without coupling it to a mental abnormality
(mental illness).
8.

Florida utilizes the conjunction “or” in its statute:

“Sexually violent predator means any person who: Suffers from
a mental abnormality ‘or’ personality disorder that makes, the
person likely to engage in acts of sexual violence if not confined
in a secure facility for long-term control, care, and treatment.”
(Fla. Stat. 394.912 (10) (b).)
9.

Therefore, the Florida statute - like the Louisiana

statute - may confine a person indefinitely on the basis of
dangerousness alone (a personality disorder). This was deemed
unconstitutional by the U.S. Supreme Court in Foucha.
10.

In a civil commitment case arising from the State of

Wisconsin the court stated that Martin’s constitutional right to
due process limits his civil commitment to the period during
which he is both mentally ill and dangerous, but no longer;
citing Foucha v. Louisiana. That as soon as the state lacks

17

clear and convincing evidence that Martin meets both
conditions, it must release him from custody. Martin v. Bartow,
628 F. 3d 871 (7th Cir. 2010).
11.

Martin illustrates that absent a personality disorder

(dangerousness) coupled with a mental abnormality (mental
illness) the person must be released from civil commitment.
12.

In Kansas v. Hendricks, 521 U.S. 346, 358, 117 S.Ct.

2072, 138 L.Ed. 2d 501 (1997) the court stated that “[w]e have
sustained civil commitment statutes when they have coupled
proof of dangerousness [personality disorder] with the proof of
some additional factor, such as a mental abnormality.”
(Emphasis in original.)
13.

To this extent, Florida’s Involuntary Civil Commitment

of Sexually Violent Predator Act is unconstitutional because it
allows the State of Florida to detain any person indefinitely on
the basis of dangerousness alone (a personality disorder) without a mental illness (a mental abnormality).
14.

The mental abnormality (mental illness) must be

coupled with the personality disorder (dangerousness) and
must be proven by clear and convincing evidence - at trial - for
the involuntary civil commitment to pass the constitutional

18

muster — and that is exactly what did not occur in the instant
case.
ISSUE NUMBER THREE
THE

ANTITERRORISM

AND

EFFECTIVE

DEATH

PENALTY ACT IS UNCONSTITUTIONAL.
1.

The instant case is a case of first impression and its

distinguishable from all existing Florida and U.S. Supreme
Court precedents.
2.

In relation to the issue that Florida has a constitutional

and statutory right to a jury trial in the initial stage of civil
commitment, there is no clearly established federal law, which
prevents the trial and intermediate appellate courts from
reaching a conclusion in opposition to the U.S. Supreme Court
on the issue being debated.
3.

Therefore, Petitioner contends that 28 USC 2254 (d) (1)

is unconstitutional in that it prevents him from establishing a
landmark and from acquiring federal relief absent a state court
holding in opposition to a U.S. Supreme Court precedent
(which is an impossible task) when a U.S. Supreme Court
precedent doesn’t exist.

19

4.

Moreover, how could a state court reach a conclusion in

opposition to a nonexistent U.S. Supreme Court precedent?
5.

And absent an existing U.S. Supreme Court precedent,

how could Petitioner establish a departure from clearly
established federal law?
6.

Petitioner is the case of first impression in the United

States on the constitutional and statutory right to a jury trial
at the initial stage of civil commitment; therefore, it’s
impossible for there to be an existing U.S. Supreme Court
precedent on this issue.
7.

As shown herein, 28 USC 2254 (d) (1) creates an

impediment to acquire federal relief in a case of first
impression (absent an existing U.S. Supreme Court precedent)
which makes the United States Code unconstitutional because
it deprives Petitioner of redress of his grievance and of access
to the courts in violation of U.S. Const. 1st and 14th Ampnd
CONCLUSION
The petition for writ of certiorari should be granted because as
demonstrated herein a travesty of justice has occurred in this
case. If truth be told: Issue Number 2, supra, nationally closes

20

civil commitment, which has been nothing more than a waste
of money and a failure of pilot program. The money being
wasted in this pilot program needs to be allocated for the
Covid-19 pandemic which necessitates billions of dollars and
possibly trillions of dollars.
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on December 16, 2020.
(Signature)

21

